                                          EXPORT-IMPOR
                                          EXPORT-IMPORT   T BAN
                                                            BANKK
OSVALDO L
OSVALDO L.. GRATACOS
            GRATAC6s                       o/the UNITED STATES
                                           of the UNITE D STATES
IINSPECTOR
  NSPECTOR G ENERAL
           GENERAL




                                               MEMORANDUM
                                               :MEMORANDUM


  TO:              Jeffrey Abramson,
                   Jeffrey Abramson, Vic
                                     Vicee President
                                           President,, Trad
                                                       Tradee Financ
                                                              Financee

  FROM:            Osvaldo L.      Q
                   Inspector Genera

  DATE:            June 9,,2011
                           2011

  SUBJECT:         Review of
                           ofthe
                              the Export-Import Bank Nigeria Banking Facility
                            2011, OlG-SR-ll-Ol)
                   (June 7, 2011,  OIG-SR-11-01)

  This memorandu
         memorandum  m transmits
                       transmits Special
                                   Special Report  OIG-SR-11-01, Review of
                                            Report OlG-SR-ll-Ol,             ofthe
                                                                                the Export-Import Bank
  Nigeria Banking Facility. The The specific
                                     specific objectives
                                              objectives of
                                                         ofth e report
                                                            the report wer
                                                                       weree to detelmine
                                                                                determine whether:
                                                                                            whether:
  potentia
  potentiall exposure
             exposure to fraud
                          fraud existed
                                 existed through
                                         through actions
                                                  actions taken
                                                          taken by participatin
                                                                    participatingg bank
                                                                                   bankss investigate
                                                                                          investigated d by
  the Nigeria n authorities
       Nigerian authorities (investigated
                             (investigated banks);
                                            banks); policies
                                                    policies and
                                                             and procedures
                                                                  procedures to establish
                                                                                  establish credit
                                                                                            credit facilities
                                                                                                    facilities
           and wer
  existed and  weree properly
                     properly implemented
                                implemented;; and
                                               and requirements
                                                   requirements to report
                                                                     report to Ex-Im
                                                                               Ex-lm Bank
                                                                                       Bank any
                                                                                              any
  corruption investigation
              investigationss underway
                               underway,, charges
                                           charges and/or
                                                   and/or convictions
                                                           convictions by local
                                                                           local authorities;
                                                                                  authorities; if so,
                                                                                                  so, was
  th
  thee information
       information disclosed.
                    disclosed.

  The revie
       revieww found
                 found tha
                        thatt Ex-1m
                              Ex-lm Bank
                                       Bank conducted
                                              conducted due
                                                          due diligence
                                                                diligence whe
                                                                           whenn establishing
                                                                                  establishing the
                                                                                                 the facility
                                                                                                     facility and
                                                                                                              and
  noted th
         thee following
              following observations:
                           observations:
           transactions conducted
      • transactions       conducted by the the two
                                                 two investigated
                                                      investigated banks
                                                                     banks and
                                                                            and underwritten
                                                                                 underwritten by Ex-Im
                                                                                                    Ex-lm Bank
                                                                                                             Bank
                   the NB
           under the   NBF  F did
                              did not
                                  not demonstrate
                                        demonstrate an   y indicia
                                                       any  indicia of fraud;
                                                                        fraud;
           Ex-lm Bank
      • Ex-1m       Bank lacked
                           lacked policies
                                    policies and
                                              and procedures
                                                    procedures when
                                                                 when it established
                                                                          established the
                                                                                       the SDA
                                                                                            SDA andand credit
                                                                                                        credit
           facility;
           Ex-lm Bank
      • Ex-1m       Bank supervisors
                           supervisors provided
                                          provided email
                                                      email guidance
                                                             guidance too Ex-1m
                                                                           Ex-lm Bank
                                                                                   Bank staff
                                                                                          staff stating
                                                                                                stating factors
                                                                                                        factors to
           be considered
               considered unde
                             underr due
                                     due diligence
                                          diligence review
                                                      review during
                                                              during the
                                                                       the selection  ofth
                                                                           selection of    e fourteen
                                                                                         the  fourteen
           participatin
           participating g banks
                            banks;; and
                                    and
           participating banks
      • participating       banks were
                                   were not
                                          not required
                                               required to provide
                                                             provide certifications
                                                                      certifications or representations
                                                                                         representations too Ex-1m
                                                                                                               Ex-lm
           Bank of compliance
                      compliance withwith U.S
                                           U.S.. or Nigerian
                                                     Nigerian laws,
                                                               laws, includin
                                                                      includingg amongst
                                                                                  amongst other
                                                                                             other things
                                                                                                   things,,
                              certifications o r statements;
           anti-corruption certifications          statements; and
                                                                 and
      • there
           there iss noo indication
                         indication that
                                      that the
                                           the investigated
                                                investigated banks
                                                               banks infOlmed
                                                                      informed Ex-Im
                                                                                  Ex-lm Bank
                                                                                          Bank of any
                                                                                                    any
                               investigation or allegations
           Nigerian-based investigation            allegations of corruption
                                                                    corruption involving
                                                                                involving senior
                                                                                            senior management
                                                                                                    management off
                investigated banks
           the investigated     banks..




                   811 Vermont Avenue, N . W . W a s h i n g t o n , D . C .              20571
We made three suggestions in our report:
   1) develop policies and procedures clearly defining when a Special Delegation of Authority
      is beneficial to American exporters and to achieving Ex-1m Bank's mission;
   2) develop policies and procedures describing how credit facilities would be established and
      describing the extent of credit analysis and reputation checks to be conducted; and
   3) establish an anti-corruption hotline where allegations of corruption practices can be
      reported to Ex-1m Bank by project participants or others with information about possible
      corruption practices in any country.

We appreciate the courtesies and cooperation provided during the review. Ifyou have any
questions, please call me at (202) 565-3908.


cc:    Alice Albright, Senior Vice President, Chief Operations Officer
       Kenneth Tinsley, Senior Vice President, Credit and Risk Management
       John McAdams, Senior Vice President, Export Finance
                            CTOR
                      SPE          GE
                 IN                     N
             F                              E
         O                                      R
     E




                                                A
 C




                                                    L
FI
OF




                                                        OFFICE OF INSPECTOR GENERAL
                                                             EXPORT-IMPORT BANK
                                                              of the UNITED STATES




           REVIEW OF THE
        EXPORT-IMPORT BANK
     NIGERIAN BANKING FACILITY




                                                                     SPECIAL REPORT
                                                                          JUNE 7, 2011
                                                                         OIG-SR-11-01
      Review of the Export-Import Bank Nigerian Banking Facility

Special Report                                                             OIG-SR-11-01


                                  Executive Summary
On July 8, 2010, the Office of Inspector General (OIG) at the Export-Import Bank of
the United States (Ex-Im Bank or the Bank) was informed of allegations of possible
corruption against managers of two Nigerian banks (investigated banks) participating
in the Ex-Im Bank’s Nigerian Banking Facility (NBF) established in 2006. In
addressing these allegations, our office conducted a review to determine whether

              potential exposure to fraud existed through actions taken by
               participating banks investigated by the Nigerian authorities (investigated
               banks);
              policies and procedures to establish credit facilities existed and were
               properly implemented; and
              requirements to report to Ex-Im Bank any corruption investigations
               underway, charges and/or convictions by local authorities; if so, was the
               information disclosed.

This OIG review does not constitute a Government audit and was not conducted
following the Generally Accepted Government Auditing Standards (GAGAS). After
conducting a review of documents available to this office, including documentation on
transactions under the credit facility and interviews with Ex-Im Bank personnel who
participated in the establishment of the credit facility, the OIG noted the following
observations:

          a) Transactions conducted by the two investigated banks and underwritten by
             Ex-Im Bank under the NBF did not demonstrate any indicia of fraud.
          b) Ex-Im Bank lacked policies and procedures when it established the SDA
             and credit facility. Ex-Im Bank supervisors provided email guidance to Ex-
             Im Bank staff stating factors to be considered under due diligence review
             during the selection of the fourteen participating banks.
          c) Participating banks were not required to provide certifications or
             representations to Ex-Im Bank of compliance with U.S. or Nigerian laws,
             including amongst other things, anti-corruption certifications or statements,
             and there is no indication that the two banks in question (investigated
             banks) informed Ex-Im Bank of any Nigerian based investigation or
             allegation of corruption by involving senior management.

The OIG determined that the underwriting process for the Nigerian participating
banks was conducted utilizing commercial industry standards. Although some of the
participating banks experienced intervention by the Central Bank of Nigeria (CBN)
leading to an industry-wide consolidation of financial institutions, the NBF was not


1 of 20                                                             Office of Inspector General
                                                                 Export-Import Bank of the United States
      Review of the Export-Import Bank Nigerian Banking Facility

Special Report                                                              OIG-SR-11-01

significantly affected by this consolidation. However, Ex-Im Bank management and
Board of Directors eventually removed some of the participating banks from the NBF,
including the two investigated banks, due to credit concerns arising out of the CBN
intervention.

Given the nature of the credit facility, the size of the credit facility, and risk associated
with credit transactions in Nigeria, the OIG issued the following suggestions to Ex-Im
Bank management:

          1) Develop policies and procedures clearly defining when a Special
             Delegation of Authority is beneficial to American exporters and to achieving
             Ex-Im Bank’s mission.
          2) Develop policies and procedures describing how credit facilities would be
             established and describing the extent of credit analysis and reputation
             checks to be conducted.
                  a. Such policies and procedures should clearly state how to calculate
                     and determine the credit limits to be extended under such
                     facilities.
                  b. The steps to be taken including credit and reputation factors to be
                     considered when conducting underwriting of lenders, guarantors,
                     buyers and any other third parties involved in the transactions.
                  c. The policies and procedures should include guidance to Ex-Im
                     Bank credit officers about their ability to request documentation
                     from guarantors and any other third parties relevant to determining
                     the credit ability of such parties and the reputation of the credit
                     facility participants (as it relates to potential fraudulent or
                     corruption activities). Such guidance should state the requirement
                     of statements and certifications of compliance with foreign and
                     domestic laws including anti-corruption certifications from
                     participating lenders’ and guarantors’ upper/senior managers (as
                     stated on Ex-Im Bank’s http://www.exim.gov/pub/pdf/Due-
                     Diligence-Guidelines.pdf). These certifications should be required
                     every time the credit facility is renewed.
          3) Establish an anti-corruption hotline where allegations of corruption
             practices can be reported to Ex-Im Bank by project participants or others
             with information about possible corruption practices in any country. A
             similar anti-corruption hotline has been established by other U.S.
             government organizations such as the Overseas Private Investment
             Corporation (OPIC). Any information received through this hotline should
             be reported immediately to the Office of the General Counsel and shared
             with the OIG.



2 of 20                                                              Office of Inspector General
                                                                  Export-Import Bank of the United States
      Review of the Export-Import Bank Nigerian Banking Facility

Special Report                                                           OIG-SR-11-01


                               Ex-Im Bank Mission
Ex-Im Bank is the official export-credit agency of the United States. Ex-Im Bank
supports the financing of U.S. goods and services in international markets, allowing
U.S. companies of all sizes to create and maintain jobs in the United States. Ex-Im
Bank assumes the credit and country risks that the private sector is unable or
unwilling to accept. Ex-Im Bank also helps U.S. exporters remain competitive by
countering the export financing provided by foreign governments on behalf of foreign
companies. At the same time, the Bank must safeguard taxpayer resources. To
execute this mission, Ex-Im Bank offers short term, medium term, and long-term
export credit financing products.

In 2010, Ex-Im Bank reached a new record level of authorizations by approving over
$24.5 billion in new transactions.


                  Ex-Im Bank’s Credit Guarantee Facilities
Ex-Im Bank establishes credit facilities between foreign banks and Ex-Im Bank in
order to facilitate the sale of American goods and services overseas. The foreign
banks act as guarantors in a transaction by absorbing the repayment risk of the
foreign buyer. This allows the foreign buyer to have access to capital for the
acquisition of U.S. products and services. It also allows Ex-Im Bank to process
transactions under the facility without the need of underwriting the lender or
guarantor every time a transaction is submitted. Ex-Im Bank then guarantees the
transaction and the foreign bank obligation under the credit facility. These credit
facilities are normally used in support of the medium-term program (2-5 year
repayment terms) but occasionally have been extended to short and long-term
transactions.

More information on Credit Guarantee Facilities can be found on Ex-Im Bank website
http://www.exim.gov/products/credit_guar.cfm.


                Nigerian Bank Facility (NBF) - Background
In 2006, due to fundamental banking sector changes in Nigeria affecting credit and
financing opportunities, Ex-Im Bank unilaterally commenced an initiative to establish
credit lines with the purpose of increasing financing opportunities for American
exports to Nigeria. The rationale for the initiative was to “provide the Nigerian market
with a product that will accelerate the processing of individual credit requests while
leaving sufficient capacity within the Nigerian banking sector to consider long-term




3 of 20                                                           Office of Inspector General
                                                               Export-Import Bank of the United States
        Review of the Export-Import Bank Nigerian Banking Facility

Special Report                                                                  OIG-SR-11-01

transactions”.1 Utilizing an internal program called Special Delegation Authority
(SDA), Ex-Im Bank management petitioned the Board of Directors for approval of a
credit framework that would expedite short and medium-term transactions. A SDA is
a special vehicle that provides for a blanket internal delegation of authority, after
approval by the Board of Directors, for transactions for up to a pre-determined credit
limit without the need to take each individual transaction to credit committee.2
Transactions over $10 million would still require Board of Directors3 approval. The
purpose of the SDA would be to expedite the approval of transactions originating by
or through the pre-selected banks by eliminating the need of credit committee
approval and eliminating the need to re-underwrite the pre-selected banks. The SDA
would be renewed on an annual basis and all the participating banks would be re-
evaluated during the renewal process.

On June 8, 2006, Ex-Im Bank staff recommended the approval of a $300 million SDA
for short and medium-term transactions to be allocated amongst the fourteen
Nigerian banks pre-selected and underwritten by Ex-Im Bank staff (participating
banks). The SDA would provide a framework to expedite transactions where the
underlying risk and primary source of repayment is one of the pre-selected banks.4
Each pre-selected bank was approved an internal credit line of between $10 million
and $25 million (See Appendix A). The special delegation for the approval of
transactions would fall under Ex-Im Bank Vice President for Trade Finance and
Insurance Division. The SDA required that participating Nigerian banks act as
guarantors in the transactions and that U.S. based lending institutions would process
and fund the transactions. The Board of Directors approved the SDA on June 19,
2006.

It its still unclear why Ex-Im Bank management arrived at that specific number of
participating banks (fourteen banks were originally selected). However, the
participating banks were selected by utilizing a process that combined a number of
factors regularly performed during credit analysis. The process involved the analysis
of the following factors:

                 prior repayment experience with Ex-Im Bank;
                 current Ex-Im Bank exposure and relationship;


    1
          Memorandum to Board of Directors, Short and Medium-Term Special Delegated
          Authority for Nigeria, June 8, 2006.
    2
          Transactions between $1 million to under $10 million were presented to credit
          committee for approval. This credit committee was eliminated in the summer of 2010.
    3
          Any transaction over $10 million is presented to the Board of Directors for approval.
    4
          Memorandum to Board of Directors, Short and Medium-Term Special Delegated
          Authority for Nigeria, June 8, 2006.


4 of 20                                                                  Office of Inspector General
                                                                      Export-Import Bank of the United States
        Review of the Export-Import Bank Nigerian Banking Facility

Special Report                                                              OIG-SR-11-01

                 size, operating performance, dividends/payout ratios, capitalization
                  levels, and assets of the banks according to the financial information
                  obtained through the Central Bank of Nigeria (CBN);
                 reputational checks and international corporate profile reports (ICP)
                  conducted by the U.S. Department of State personnel in Nigeria;
                 bank reports obtained by credit information providers such as
                  Bankscope; and
                 participating banks debit/equity ratios.

The combined equity base of the pre-selected participating banks was approximately
$3 billion.

On June 4, 2008, Ex-Im Bank management recommended to the Board of Directors
a modification of the existing SDA. The requested modification included: (i) the
increase of the credit limit to $1.045 billion; (ii) re-designation of the SDA into a credit
facility; (iii) an expansion of the products to include long-term transactions; and (iv)
removal of some of the participating banks.5 The Board of Directors, acting upon
management recommendation, voted in favor of approving the modification and
renamed the facility the Nigerian Bank Facility (NBF). The rationale for petitioning an
increase in the credit limit by Ex-Im Bank management was the “positive impact of
the Nigeria SDA in facilitating Ex-Im Bank’s penetration of the Nigeria (sic) market.”6
At the moment of the modification, about $56.5 million of new medium-term
transactions had been authorized under the SDA, but Ex-Im Bank’s Nigeria exposure
for banks under the NBF (including non-SDA transactions) had increased to $267
million7 from $68.1 million.

During the global crisis in 2008 and 2009, like many financial and banking systems in
the world, Nigeria experienced a rapid deterioration of credit standards. Given the
impact of the crisis, the CBN took drastic actions to prevent further deterioration of
capital and the financial system. Some of these actions included: intervention on a
number of banks, the re-classification of some loans as non-performing, a $3.75
billion capitalization into nine banks, and removal of management on eight banks
(four of which were Ex-Im Bank NBF participants). Due to the intervention by the

    5
          Memorandum to Board of Directors, Renewal and Modifications of the Special
          Delegated Authority for Nigeria, dated June 4, 2008.
    6
          Memorandum to Board of Directors, Renewal and Modifications of the Special
          Delegated Authority for Nigeria, dated June 4, 2008.
    7
          The bulk of the increase on Ex-Im Bank exposure was due to the sale of Boeing
          aircrafts under the long-term program through the NBF. Between 2007 and 2008,
          approximately $124.9 million in aircraft sales was approved under the NBF (an
          additional $113.8 million since).


5 of 20                                                              Office of Inspector General
                                                                  Export-Import Bank of the United States
        Review of the Export-Import Bank Nigerian Banking Facility

Special Report                                                               OIG-SR-11-01

CBN and the removal of management in some of the NBF participants, in October
2010, Ex-Im Bank management recommended to the Board of Directors the removal
of the following banks: Afribank, Intercontinental Bank, Oceanic Bank and Union
Bank.8 Following Ex-Im Bank management recommendation, the Board of Directors
removed the above referenced banks from the NBF and decreased the NBF credit
limit to $1 billion from $1.045 billion.

As of March 2011, the aggregate authorizations under the NBF were approximately
$544 million and exposure was $284 million (Appendix B).


                                    Review Objectives
The objectives of this review are (1) to evaluate how Ex-Im Bank conducted its
underwriting of the banks participating in the NBF, (2) evaluate transactions
conducted by the investigated banks under the NBF, (3) whether policies and
procedures for establishing SDA designation exists, (4) whether policies and
procedures for establishing credit facilities under SDA designation exists, and
(5) whether they were properly implemented. The specific objectives are to
determine whether

                 potential exposure to fraud existed by actions taken by the investigated
                  banks;
                 policies and procedures to establish credit facilities exist and were
                  properly implemented; and
                 requirements to report corruption investigations, charges and/or
                  convictions by local authorities to Ex-Im Bank were in place; if so, was
                  the information disclosed.




    8
          Memorandum to the Board of Directors, 2010 Renewal of the Nigerian Bank Facility,
          October 21, 2010.


6 of 20                                                               Office of Inspector General
                                                                   Export-Import Bank of the United States
      Review of the Export-Import Bank Nigerian Banking Facility

Special Report                                                              OIG-SR-11-01


                               Scope and Methodology
The scope of the review focused on the NBF established in 2006. In conducting our
review, we analyzed the memoranda prepared by Ex-Im Bank management to the
Board of Directors during the period of 2006-2010, reviewed initial underwriting and
credit review documents, interviewed Ex-Im Bank personnel, reviewed transactions
approved under the NBF involving the banks in question, and conducted research on
the matter.


                                 Review and Findings
On July 8, 2010, the OIG was informed of allegations of possible corruption involving
participants of the NBF. Specifically, the allegations stated that two of the
participating banks (investigated banks) had been investigated by local authorities
and that members of the management team for those banks had been indicted on
corruption charges by Nigerian authorities. The OIG became aware that, in October
2010, the former managing director of one of the investigated banks was convicted of
such charges and sentenced to six months of prison.

Based on these allegations, the OIG undertook a review of the NBF and some of the
transactions conducted under the NBF involving the two investigated banks. After
conducting this review, the OIG noted the following observations:

          a) Transactions conducted by the two investigated banks under the NBF did
             not demonstrate indicia of fraud.
          b) Ex-Im Bank lacked policies and procedures when it established the SDA
             and credit facility. Ex-Im Bank supervisors provided email guidance to
             Ex-Im Bank staff stating factors to be considered under due diligence
             review during the selection of the fourteen participating banks.

          c) Participating banks, or their authorized representative(s), were not required
             to provide certifications or representations of compliance with U.S., foreign,
             or Nigerian laws to Ex-Im Bank, including amongst other things,
             anti-corruption certifications or statements; and there is no evidence that
             the investigated banks reported the investigation to Ex-Im Bank
             management.




7 of 20                                                              Office of Inspector General
                                                                  Export-Import Bank of the United States
        Review of the Export-Import Bank Nigerian Banking Facility

Special Report                                                               OIG-SR-11-01

Discussion of the above observations is presented below.


    a. Transactions conducted by the two investigated banks under the NBF did not
       demonstrate indicia of fraud.

          Transactions conducted by the two investigated banks under the NBF (dating
          back to 2007) were reviewed to determine if any indicia of fraud could be
          detected. The review demonstrated that the U.S. goods were shipped and
          there were no indications that those transactions were fraudulent. Specifically,
          the OIG found that two of the transactions involved the sale of new and used
          aircrafts (Boeing 737s) in the amount of $81.3 million dollars. After reaching
          out to the Federal Aviation Administration, the OIG was able to confirm the
          validity of the serial numbers and the authenticity of the Export Certificate of
          Airworthiness for these transactions.

          Another transaction under the credit facility involved the export of garbage
          processing equipment to Nigeria. In this transaction, the OIG reviewed the
          maritime bills of lading (BOLs) submitted by the lender and the BOL appeared
          to be proper. Some of the equipment listed on the BOLs included trailers
          marked with vehicle identification numbers (VINs). The OIG ran the VINs
          through national law enforcement databases and found that these databases
          had no negative records on these VINs. Further, the OIG contacted the
          manufacturer and exporter of record for the transaction who confirmed the
          sale and export of the trailers.

          It is important to highlight that since October 2010, these investigated banks
          are no longer part of the NBF after Ex-Im Bank Trade Finance Division
          recommended to the Board of Directors the removal of some participating
          banks, including the two investigated banks.9 Following Ex-Im Bank
          management recommendation, the Board of Directors removed the banks
          from the NBF and decreased the NBF credit limit to $1 billion from $1.045
          billion.

    b. Ex-Im Bank lacked policies and procedures when it established the SDA and
       credit facility. Ex-Im Bank supervisors provided email guidance to Ex-Im Bank
       staff stating factors to be considered under due diligence review during the
       selection of the fourteen participating banks.

          In its efforts to expand the Nigerian market to more U.S. exports, Ex-Im Bank
          unilaterally commenced a process of selecting and analyzing Nigerian banks

    9
          Memorandum to the Board of Directors, 2010 Renewal of the Nigerian Bank Facility,
          October 21, 2010.


8 of 20                                                               Office of Inspector General
                                                                   Export-Import Bank of the United States
         Review of the Export-Import Bank Nigerian Banking Facility

Special Report                                                               OIG-SR-11-01

          that could accommodate expanded export credit products. In selecting the
          original fourteen participating banks in 2006, Ex-Im Bank utilized a process
          that combined a number of factors determined by senior management to be
          the most effective in analyzing the capacity of the participating banks.
          Although these factors were communicated to the staff via email, they were
          not documented in any policies and procedures that could be utilized in the
          future by other Ex-Im Bank staff. Amongst the factors considered by Ex-Im
          Bank were: (1) prior Ex-Im Bank experience, (2) Ex-Im Bank exposure and
          relationship with the participating banks, (3) size of the institution’s portfolio,
          (4) capitalization levels and assets of the banks according to the financial
          information obtained through the CBN, (5) reputational checks and
          international corporate profile reports (ICP) conducted by the U.S. Department
          of State personnel in Nigeria, and (6) financial reports of the participating
          banks obtained from credit information providers such as Bankscope. The
          reputational checks were limited to the institutions as a whole, the
          identification of owners with more than 5% equity ownership and, at the
          requests of Ex-Im’s Bank Office of General Counsel10, to some of the senior
          managers of the banks, including Managing Directors, Chairmen, CEOs,
          Deputy Manager Directors, Non-Executive Directors, and Board Members.
          The names of these individuals were then run against the U.S. list of excluded
          parties (Office of Foreign Asset Control or OFAC). However, it is unclear if the
          reputational checks were extended to all senior directors and managers of the
          14 participating banks.

          In conducting our review of the NBF, the OIG noticed that Ex-Im Bank did not
          have any policies and procedures in place when establishing the facility and
          selecting the participating banks. During the interview of Ex-Im Bank officials,
          it was disclosed that Ex-Im Bank management relied on their experience and
          expertise when developing the SDA, the NBF, and when conducting the
          underwriting of the participating banks. Email guidance communication was
          provided to Ex-Im Bank staff during this exercise. The rationale and
          explanation of how the SDA was going to be implemented was described in
          the Memorandum to the Board of Directors of June 2006. However, Ex-Im
          Bank management failed to create policies and procedures that would
          document and memorialize the steps to be taken to approve credits, factors to
          be considered when approving credit, factors that would cause denial of credit
          or the cancellation of the credit lines, and the extent of the due diligence
          efforts amongst other factors. Moreover, Ex-Im Bank management did not
          develop steps outlining how the banks’ credits were going to be renewed,
          factors affecting the renewals, and reporting of facility activities to Board of
          Directors under the SDA granted by the Board.


    10
          Email from Office of General Counsel to Trade Finance staff dated 02/08/2006.


9 of 20                                                               Office of Inspector General
                                                                   Export-Import Bank of the United States
         Review of the Export-Import Bank Nigerian Banking Facility

Special Report                                                                  OIG-SR-11-01

          When approving transactions for short and medium-term products either under
          a SDA and/or a NBF, transaction participants are subjected to the standards
          established by Ex-Im Bank’s Transaction Due Diligence Best Practices
          (January 10, 2008; Due Diligence Guidelines).11 These underwriting
          standards have been created with the purpose of: identifying material due
          diligence issues; submit applications that Ex-Im Bank can approve more
          quickly; and identify questionable transactions as they relate to lenders,
          exporters, buyers, guarantors, agents and brokers.12 Although the Due
          Diligence Guidelines were enacted in early 2008, the Trade Finance Division
          has followed a similar approach when conducting due diligence of buyers and
          exporters under the NBF and when it conducted the credit diligence of
          participating banks in a way that incorporated some information requirements
          provided by the guidelines.

          In general, Ex-Im Bank utilized available credit information to conduct the
          credit review of the participating banks.

   c. Participating banks, or their authorized representative(s), were not required to
      provide certifications or representations of compliance with U.S., foreign, or
      Nigerian laws to Ex-Im, including amongst other things, anti-corruption
      certifications or statements; and there is no evidence that the investigated
      banks reported the investigation to Ex-Im Bank management.

          One of the factors to be determined during the underwriting process is the
          identification of potential fraud or corruption practices by transaction
          participants. Ex-Im Bank’s Due Diligence Guidelines state in relevant part:
          “For this reason, Ex-Im Bank relies upon transaction participants to provide
          legitimate information, certifications, …and to comply with all applicable laws –
          both domestic and foreign.”13 The Due Diligence Guidelines have established
          a series of questions to be asked by the Ex-Im Bank credit officer to the
          different transaction participants. These questions focused on agents,
          exporters, and buyers, but do not have a particular focus on lenders or
          guarantors. As clarified in Finding b. above, these Due Diligence Guidelines
          were established in January 2008, almost two years after the original Nigerian
          SDA was approved by the Board of Directors. Presumably, they would have
          been applied to the annual renewal of the SDA and facility.

          Further, in its internal guidance for due diligence and “know your customer”
          practices, Ex-Im Bank emphasizes safeguarding taxpayers’ resources by

    11
         http://www.exim.gov/pub/pdf/Due-Diligence-Guidelines.pdf
    12
         http://www.exim.gov/pub/pdf/Due-Diligence-Guidelines.pdf
    13
         http://www.exim.gov/pub/pdf/Due-Diligence-Guidelines.pdf at page 3



10 of 20                                                                   Office of Inspector General
                                                                      Export-Import Bank of the United States
      Review of the Export-Import Bank Nigerian Banking Facility

Special Report                                                            OIG-SR-11-01

       identifying credit, fraud, and corruption risks associated with transaction
       participants, including lenders and guarantors. It states that “Ex-Im Bank may
       decline to process or discontinue processing any application related to a
       transaction if Ex-Im Bank determines there is evidence of fraud or corruption
       or any of the participants has engaged in, or been associated with, fraud or
       corruption in the past.” These guidelines were also adopted almost eighteen
       months after the initial credit facility was established. However, Ex-Im Bank
       continued to renew the credit facility without applying to participating banks
       some of the steps and standards provided by the Due Diligence and Know
       Your Customer Guidelines. For example, during the credit underwriting
       process conducted by Ex-Im Bank officials, participating Nigerian banks were
       not asked to provide statements or certifications related to compliance with
       domestic and foreign laws. Our review of the documents and interviews of
       Ex-Im Bank officials have determined that Ex-Im Bank relied on the ICP
       reports on the participating banks and other credit information provided by the
       U.S. Embassy in Nigeria, the CBN, and the Bankscope reports. However, the
       character and reputational review was only limited to the information Ex-Im
       Bank received from the U.S. Embassy. No further efforts were uncovered
       during our review. Even after the implementation by Ex-Im Bank of the Due
       Diligence and Know Your Customer Guidelines in January 2008, Ex-Im Bank
       renewed the credit facility, extended the credit limit from $300 million to $1.045
       billion and extended the credits to long-term transactions without requesting
       any direct information from the participating banks, including representations,
       statements or certifications of compliance with domestic and foreign laws. If
       required by Ex-Im Bank process, this information should have been provided
       by the participating bank’s management in order to keep its line of credit. This
       would have provided Ex-Im Bank with an earlier opportunity to remove or
       terminate these banks.

       Moreover, our review identified that Ex-Im Bank staff had clear knowledge of
       the CBN intervention but conflicting recollection as to knowledge of the
       Nigerian investigation and eventual conviction of the managing director of one
       of the participating banks. A quick search on the internet about these two
       investigated Nigerian banks showed at least nine hits (on the first page) with
       press articles alluding to the investigation and eventual conviction of the
       former managing director of one of the NBF participating (investigated) banks.
       Some of these articles date back to 2009. (See Appendix D). Given the CBN
       intervention, in August 2009, Ex-Im Bank’s Senior Vice-President for Trade
       Finance and Credit instructed its staff, via email, not to extend additional credit
       to Nigerian banks being intervened by the CBN. Further, in October 2009,
       Ex-Im Bank Board of Directors approved a temporary suspension of the




11 of 20                                                             Office of Inspector General
                                                                Export-Import Bank of the United States
         Review of the Export-Import Bank Nigerian Banking Facility

Special Report                                                                OIG-SR-11-01

          extended credit for these banks14 and extended the NBF for another year
          citing amongst other reasons the steps taken by the CBN, including the CBN’s
          approach of not allow any bank to fail and promises to guarantee losses of the
          intervened banks.15 Despite these assurances, Ex-Im Bank eventually
          removed these investigated banks in October 2010, without any apparent loss
          to Ex-Im Bank. This move was predicated on the fact that CBN found these
          investigated banks to have palpable integrity, corporate governance, and
          transparency issues. These specific facts were known to Ex-Im Bank staff.
          However, at no moment did Ex-Im Bank management state or mention in its
          October 22, 2009 and October 21, 2010 memoranda to the Board of Directors
          that a local investigation for corruption charges and guilty plea of a former
          managing director had taken place nor cite these as reasons for removal.16 It
          clearly stated that the CBN intervention was the reason for the removal
          request.

As of the date of this review, current Ex-Im Bank guarantee exposure under these
two investigated banks is approximately $106 million, $32.9 million of which belong to
the investigated bank managed by the convicted former director (Appendix B).




    14
         Memorandum to the Board of Directors, 2009 Renewal of the Nigerian Banking
         Facility, October 22, 2009.
    15
         Ex-Im Bank’s President’s, Fred Hochberg, letter to Central Bank of Nigeria’s
         Governor, Sanusi Lamido Sanusi, dated December 8, 2009 and Mr. Sanusi’s
         response dated January 14, 2010. (See Appendix E).
    16
         Memorandum to the Board of Directors, 2010 Renewal of the Nigerian Bank Facility,
         October 21, 2010.


12 of 20                                                                 Office of Inspector General
                                                                    Export-Import Bank of the United States
      Review of the Export-Import Bank Nigerian Banking Facility

Special Report                                                          OIG-SR-11-01


                                    Suggestions
       1) Develop policies and procedures clearly defining when a Special
          Delegation of Authority is beneficial to American exporters and helps
          achieve Ex-Im Bank’s mission.
       2) Develop policies and procedures describing how credit facilities should be
          established and describing the extent of credit analysis and reputation
          checks to be conducted.
               a. Such policies and procedures should clearly state how to calculate
                  and determine the credit limits to be extended under such
                  facilities.
               b. The steps to be taken, including credit and reputation factors to be
                  considered when conducting underwriting of lenders, guarantors,
                  buyers, and any other third parties involved in the transactions.
               c. The policies and procedures should include guidance to Ex-Im
                  Bank credit officers about their ability to request documentation
                  from guarantors and any other third parties relevant to determining
                  the credit ability of such parties and the reputation of the credit
                  facility participants (as it relates to potential fraudulent or
                  corruption activities). Such guidance should state the requirement
                  of statements and certifications of compliance of foreign and
                  domestic laws including anti-corruption certifications from
                  participating lenders’ and guarantors’ upper/senior managers (as
                  stated on Ex-Im Bank’s http://www.exim.gov/pub/pdf/Due-
                  Diligence-Guidelines.pdf). These certifications should be required
                  every time the credit facility is renewed.
       3) Establish an anti-corruption hotline where allegations of corruption
          practices can be reported to Ex-Im Bank by project participants or other
          parties with information about possible corruption practices in any country.
          A similar anti-corruption hotline has been established by other U.S.
          government organizations such as the Overseas Private Investment
          Corporation (OPIC). Any information received through this hotline should
          be reported immediately to the Office of the General Counsel and to the
          OIG.




13 of 20                                                           Office of Inspector General
                                                              Export-Import Bank of the United States
      Review of the Export-Import Bank Nigerian Banking Facility

Special Report                                                 OIG-SR-11-01



                                Acronyms

       BOL          Bill             of Lading

       CBN          Central              Bank of Nigeria

       Ex-Im Bank or Bank         Export-Import Bank of the United States

       ICP          Internati            onal Corporate Profile

       NBF          Nigeria              Bank Facility

       OFAC         Office              of Foreign Asset Control

       OIG          Office              of Inspector General (Ex-Im Bank)

       SDA          Special              Delegation of Authority

       VIN          Vehicle              Identification Number




14 of 20                                                   Office of Inspector General
                                                     Export-Import Bank of the United States
      Review of the Export-Import Bank Nigerian Banking Facility

Special Report                                                     OIG-SR-11-01


                                   Appendix A


  Pre-selected Nigerian banks and their correspondent SDA credit lines
                    during selection process in 2006

                                                               Recommended Line
                 Bank              Ex-Im Bank Exposure
                                                                  under SDA
             Access Bank                 $5.8M                          $10MM
               Afribank                   None                          $10MM
            Diamond Bank                $22.1MM                         $25MM
               Ecobank                  $16.6MM                         $25MM
               First Bank                 None                          $25MM
       Guaranty Trust Bank                None                          $35MM
      Intercontinental Bank             $16.9MM                         $20MM
                 IBTC                     None                          $10MM
       Nigerian Int’l Bank                None                          $25MM
           Oceanic Bank Int’l           $6.89MM                         $15MM
Standard Chartered Bank, Nigeria          None                          $25MM
      Stanbic Bank Nigeria                None                          $25MM
              Union Bank                  None                          $25MM
              Zenith Bank                 None                          $25MM




15 of 20                                                      Office of Inspector General
                                                         Export-Import Bank of the United States
      Review of the Export-Import Bank Nigerian Banking Facility

Special Report                                               OIG-SR-11-01


                               Appendix B


       Current NBF Utilization and Ex-Im Exposure as of March 2011




16 of 20                                                Office of Inspector General
                                                   Export-Import Bank of the United States
      Review of the Export-Import Bank Nigerian Banking Facility

Special Report                                                      OIG-SR-11-01


                                   Appendix C


            Ex-Im Bank country exposure in Nigeria as of June 2006
                      (when the facility was established)

                                                                            % Total
 Short-Term        Medium-Term     Long-Term    Country Total
                                                                            Portfolio
  $6.196MM           $45.069MM    $136.439MM     $215.113MM                  0.38%




           Ex-Im Bank Total Exposure for Nigeria as of end of FY 2010

                                                                            % Total
 Short-Term        Medium-Term     Long-Term    Country Total
                                                                            Portfolio
   $14.5 MM          $44.5 MM      $231.1 MM         $308.1MM                0.41.%




                                 Claims in Nigeria
       Fiscal Year                                          Amount

       2006                                                     $27.408MM

       2010                                                     $18.0 MM




17 of 20                                                        Office of Inspector General
                                                          Export-Import Bank of the United States
      Review of the Export-Import Bank Nigerian Banking Facility

Special Report                                             OIG-SR-11-01


                             Appendix D




18 of 20                                              Office of Inspector General
                                                 Export-Import Bank of the United States
      Review of the Export-Import Bank Nigerian Banking Facility

Special Report                                                      OIG-SR-11-01


                                  Appendix E




Fred Hochberg’s, Ex-Im Bank’s President, letter dated December 8, 2009 to Sanusi
Lamido Sanusi, Governor of the Central Bank of Nigeria, and Mr. Sanusi’s response
dated January 14, 2010




19 of 20                                                       Office of Inspector General
                                                          Export-Import Bank of the United States
                             ..
                       .. .• :\ -.           ,.. :   -. :. -.                                                                                                                                              , .. , ~ ,,":,.                  " . .... "..">.,". .• ~_ .-' , C· '"

               ' fRE1~      p HU~'jJi'i:'i~(:                                                                                                                                                             O.\c\ ,Rl\t:\ k& till r:::~;i· ;F.;,{r




                             ib0E~;~l.1>1~-1r&lf>Vll'tB."pk ()rfu~~ 9;<Jh~ StuUt.:l C~F~r-Il.i.'4 Ukil." '1/                                                                                     ;~ ,;;; ;)L.;,r:;j                 SL,i1~
                            'gt)~t ase~I~1 dl2x'8ed ~i,~" WHi;:Wittg                6'Kil,,~t; ~11" s-l;n!l;,~~B , 'il!h~~.Vl5                tow e;\/)O¥t vf t LS,
   ',I" ,::';       ... : ,,'~~~~ . in 'J~Srr PMt bi' ~yi.~ iO.J~gtl;lr~teeiltr;~J$, ~,(immt:"ciiJ~ b,mk" . t-f' ::·1W 0.'i"




      ,; ~i~,~jllaf~i.i'ft.l~l*1i~~: ·
                ,, ." " Dired9rs.:aw.v.ej:l:amte..~t reri:ewil 6ftlie i:7~mty. whicb streaffli,inell j}ie '~'$5 of amot>,ihg
                     '",;    'dC<1l"wiib'deS\gi)RledW.gtiiaO ~," ,                                                                         ,, -, " " " , '           ", \ \ ';'"             : ',              ' ~'          , i' , ' , '     .              . ...




                      ·<;'a~i~!~~~r.~F:~ll~.i.l,
                           .:.pi~~~n~ ~ 'reli~ \HI~ t1!N~ l{de~al1itj~~~~ttl:!M itwiil 1l\)t ,aUq:y; :mt~i~H~Ul
                          , p,ank tQ fili!) thti tc6U1!li.'Ofili~ ·caNt~ specil1i Q."i'a.;mi1ation·of vari0us Nlg~rIan b;·m:.b.th€' !;Uppon                                                                                     I


                        .... :,~~ CJ;lN' 1.';l\.~ p'.r0 v1(.\.:4,tu tlli~ ~bth8~ di>;1r!f'~t Pl).S6. thtl review, and the Cbi'l 's g'~"U.li~ Qf ~H~

                        !· "·ft:~~~tJ;;h~~;:1~f~~I~;f5 ~t?:: ~:~~~:';~~~:~1~~~~·~I~~:;;~'~,.·i:~~g:,:~; :11~. :?J;j;;:' /:~~'~':.;;i:~';, ~fj;:~~
                             obh::-~i1~h (':1:'n~..                          \l!':;i           w;,f.i £:i).~ !1t!U'..j+~ !.f) f"tl()~'H~'?·     the   ~~·~t:.~~~~l ~.} (   ·tht;; L:i,;:·N   ~!lf (~ !.     rn\ir-e             GfQ&,;d~'y:,




                             ~,,¥(j; Ic,,?k i~"If1;>,"t;j);td                           'tt}     c()nt!!ml~1~ to :ruFr',,)rnran:;a~ltiOtRl in ;'¥ig,u;~!' ~~jd (}\~r tiiijf,uaily ,b¢lleflcfal
                             Wt~~kirlg                    r;;WJoilGhlps                           w~th iJj~~ t.'~nj)kJ c>t Nl.Rwllit ~d. 1 ~ti{:n.illy kl(~k :r0nv.'kl';~ t..;: ;J)i)(l'i:n~ it-\!
                             ~"''!It          ·.·r");. V' ''~ "'''t'· ;,-, 'j;/,;,(;!,J-. w /'i?,'
                             ~~ ....... ~ ..\-l -!itf.',l ,.r .............~..:J. .. .....;;                                  h i'"
                                                                                                .' ; ~.._ -;llJ;"()" _JO"i! ~..f "\0'" ~




             ..,:
... .. , .
  ~
. r:




               Ar,it/auk Nigeria                       USD 15t 615.866.80
               1ntero.1ntinental I,Sank                tJSD70,358,160,20
       .:',"   Oceanic Bank International              tJSn 27.661,306.64
               Unlonaank~ 6fNigerla ,              :
                                                       USD 69,231~'~9S.4{}
                                                              '        i   ,.' , '



                                      , .- . . .




                                                                                                                                                                                        " '
                                                                                                                                                                                        ( \




                                                                                     .   '   ~.   .   .




                                                                                                          ·1,....... _   ~   . ..... - - . ....r , ,   , _.-   •   - -',.-~.   "   t"
      Review of the Export-Import Bank Nigerian Banking Facility

Special Report                                                  OIG-SR-11-01


                               Appendix F




             Management Response, dated June 6, 2011, to Report




20 of 20                                                   Office of Inspector General
                                                      Export-Import Bank of the United States
                                    EXPORT-IMPORT        BANK
                                       OF THE UNITED STATES




June 6, 2011

The Honorable Osvaldo L. Gratacos
Inspector General
Export-Import Bank of the United States
811 Vermont Avenue NW
Washington , DC 20571

Dear Mr. Gratacos:

Thank you for the opportunity to comment on the Special Report "Review of the Export-Import
Bank Nigerian Banking Facility" (OIG-SR-11-01) prepared by your office. We have reviewed the
findings and suggestions carefully and will ensure that any similarly structured facilities that may
be considered by the Bank in the future benefit from the feedback provided in this report.

The Bank's management would highlight several issues that will inform the structure, due
diligence and monitoring of future facilities based on any Special Delegated Authority ("SDA")
granted by the Board of Directors.

    •   Special Delegated Authority credit lines, such as the Nigerian Banking Facility ("NBF")
        provide exposure guidelines only and were created both to enable more efficient
        transaction processing , and as marketing tools. The lines do not commit Ex-1m Bank to
        any financial exposure. Ex-1m Bank incurs exposure to a given NBF bank only when Ex-
        1m Bank approves a specific transaction for that particu lar bank. Irrespective of the grant
        of SDA made by the Board , every transaction must be considered for authorization
        ind ividually, either under Individual Delegated Authority (if less than $10 mm) , or by Ex-
        1m Bank's Board of Directors (if over $10 mm) and consideration includes an evaluation
        of any updated financial statements on the NBF bank, as well as a reputational check of
        the buyer (this differs significantly from a Cred it Guarantee Facility, where Ex-1m Bank
        exposure for the entire CGF amount is committed upfront, with no ability to review
        transactions on a case-by-case basis).

    •   Ex-1 m Bank's general due diligence procedures on Special Delegated Authority (S DA)
        credit lines are the same as on non-SDA transactions. These procedures include
        conducting a Character, Reputation and Transaction Integrity ("CRTI ") check on all key
        participants (which consists of a review of numerous debarment, law enforcement and
        other databases worldwide), as well as a review of the U.S. Treasury Department's
        OFAC database, checks with the local U.S. Embassy, and on occasion, retaining (or
        requiring the retention of) the services of third-party risk consultants.

    •   Whether the NBF bank is the borrower or the guarantor on a transaction, the NBF bank is
        considered the "primary source of repayment (" PSOR" ). As the PSOR, the NBF bank is
        the primary transaction participant scrutinized by the Ex-1m Bank Loan Officer in order to
        determine whether a reasonable assurance of repayment exists for the amount




                        81 1 VERMONT AVENUE, N.W     WASHINGTON,   nc. 20571
The Honorable Osvaldo L. Gratacos, June 6, 2011 - Page 2




                recommended . In the case of the NBF, staff followed well documented credit standards
                and then enhanced those standards to include reputational due diligence on the banks,
                major shareholders and their senior management and directors in view of the higher risks
                in this market. Also, while Ex-1m Bank generally does not take credit risk on the
                buyer/end-user under these structures , due diligence is performed on the buyer/end-user
                as well at the time that a specific transaction is reviewed, to ascertain whether there are
                any reputation concerns with these entities .

            •   Management and staff recognize that ongoing monitoring of markets , sectors and
                institutions covered by an SDA is crucial. With respect to the NBF, the Bank's Chief
                Credit Officer provided written guidance to staff after the Central Bank of Nigeria
                intervention instructing that transactions involving the intervened banks should not be
                processed .

            •   We are aware that certifications are advised in the 2008 document Transaction Due
                Di/igence Best Pra ctices , and that consequently, the applicant provides certain
                certifications on the application form , as does the exporter on the exporter certificate.
                However, other than these certifications, no certifications from the PSOR -- whether the
                PSOR is a corporate entity or a bank as in the case of the NBF-- are typically required , as
                our current due diligence on the PSOR is already extensive and relies on independent
                sources, rather than the PSOR's own statement in a certification. However, as part of its
                Fraud Mitigation Working Group , bank staff is considering the development of a
                "Borrower's Certificate" for certain transactions and this document may be applicable to
                SDAs.

       Management recognizes the importance of addressing these and other issues related to SDAs in
       a comprehensive and consistent manner and to providing adequate guidance to the staff through
       the establishment of clear documentation of policies and procedures related to SDAs. As such,
       we intend to include a new section in the Transaction Processing Manual regarding specific due
       dil igence and underwriting procedures for SDAs. We would look forward to working with your
       office as this guidance and documentation is developed .

                                 ~
                          ,y~/~
   ~                 ,v   ~~/            ~
  ,    JeffreyA Abramson, CFA
       Vice President
       Trade Finance
Office of Inspector General
Export-Import Bank of the United States
811 Vermont Avenue, NW
Washington, DC 20571
202-565-3908
www.exim.gov/oig
